Jan. 7. 2009 4:00PM                                                                                     No. 0400       P. 1



                        NATIONAL RAILROAD PASSENGJCR CORPORATION
                                 OFFICE OF THE INSPECTOR GENERAL
                                     OFFICE Ol?INVE§TlGA'UONS
                                      INVESTIGATIVE REPORT

       TITLE:                            _             Conflict 01' Interest CASE NUMBER: 05-025

      DATE OF REPORT:                    January 6, 2009~
      REPORT PREPARED BY:

      REPORT OF INTERVIEW:
      REPORT OF DOCUMENTS:
      OTHER ACTIVITY (DESCRIBE): CLOSING REPORT

      ALLEGATION:

      Amtrak Senior Director Procu(ement,                                          dlsco~
      while              cOllSultant and independent contractor spending. _ _
                        has been II consultant to Amfrak fol' at least 3 years, Illost receutly to the
    . Engineering Depmtment in Philadelphia. The Amtrak Committee which reviews
      collSU.ltants and independent contmctors questioned her necessity back ill September of
      2003. The Committee extended her use for 110               than three montlls. To date she is
      still 011 the property woddng                                               in the Eugineoring
      Department. Also, it Is .                                           own company, "Eucada,
      LLC". After researching payment fLIes,                 found two invoices for pr()fe!;slonal
      services from              LLC" were subm.itted to
                                   Amtrak Philadelphia in
     iiiiiiiirs       compnny and is bel' COilll)any being IIsed to circumvent the system.

     ;[AC'fS:




                                         _'s
      The allegatlo!h~ were substantiated. Ol's                             revealed tlmt _
      established Bncada. Additionally, 01 determined that                      s a ClIrrent reference for
      Encada. or founc! records that revealed that                       was using llncada's business
      address, which was also                            hom6 address, • •, • • • • • •
     _                          as his home address on bllsiness documents. l This investigation
     ~                                dnted, !lIld subsequently l1llIITied, _                         has
     giv()Jljob reference information to internal Amtrak management regarding                           's
     ~q.ua.1iiilf1iic.atlo1lS.1        Iworkg 01) Amtl'nk projects that internct with the same projects
     •                 is working on. 01 found that high-level mombers of the Amtrak Technologies
     ("AT") Dcprntment, whIch hos been chnngcd to the Iufol'lnntion Technologies ("IT")


     I Seedropped
     WM    Exhibit offat
                   1 (Tax! rCOOI~,t~d~at~ed~~~!!
                         9;30 I,.m.
                                                         submitted by             ',bleh roveals • • •
                                                          the BO.Rda busillOSS ftddress)."Sii".OiE.X1.'JI.'it: 2 (i\
     pl'openy inspection roport                                                              •                wWoh
     !lIdlcfttO$ tbn!       wrulilving
.Ja n. 7. 2009 4:00PM                                                                No. 0400      P. 2



       Department, shared their "nlnmlt~"               wlth_                  also shared
       hIs                  .                   or B investigation ftu1her revealed that
                                          fOfmer                        flS a professional
      reference for Rncada, OI's         found that while               supervised work
      ~lformed by Optram fol' the Ellglllccl'l.l)g Department, _               worked for
      _       as a contrdCtOI'.                                      .

       CORlmC'I'IVE ACTION TAKEN:


      --
      -
                                  • • • took corrective nction see Exhibit 1.

                                             took corrective action see Exhibit 2.

                        VP Human Resollrces and Diversity, at first mctieated that she wanted tQ
      take fhrther action above what _        and        bnd done but nftor a second look she
      decMed not to take filly further action. See Exhibit 3.

      RECOMMJj1NDATIONS:

      With no further leads or developments tltis case should be closed pendmg ally new
      request fol' assIstance.

      Deputy Inspector General/Collosel:    ~- ;jr~T
